          Office of Inspector General




February 14, 2006

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Surface Transportation – Bulk Mail Center Highway
         Transportation Routes – Western Area (Report Number NL-AR-06-001)

This report presents results from our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL010). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Western Area.

The U.S. Postal Service could save about $2.2 million over the term of existing Western
Area bulk mail highway contracts by cancelling, not renewing, or modifying 77 trips.
The savings represent potential funds that could be put to better use and will be
reported as such in our Semiannual Report to Congress. The Postal Service could
eliminate or modify the trips without negatively affecting service because trip volume
was low and mail could be consolidated on other trips. We recommended the vice
president, Western Area Operations: (1) verify the actual cancellation, modification, or
substitution of the 25 trips identified by Postal Service managers during our audit;
(2) verify the actual cancellation, modification, or substitution of the 50 trips with which
Postal Service officials agreed; and (3) reassess the two trips managers feel are still
necessary.

Management agreed with our recommendations. They stated that all 75 trip reductions
to which they had agreed, had already been made, or would be made by May 2006.
They also stated they would reassess the two remaining trips. Management’s
comments and our evaluation of these comments are included in this report.

The U.S. Postal Service Office of Inspector General (OIG) considers
recommendations 1, 2, and 3 significant, and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendations
can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                                     NL-AR-06-001
 Transportation Routes – Western Area


                                         INTRODUCTION
 Background                       Bulk mail includes magazines, advertising, and
                                  merchandise shipped by major mailers like publishers,
                                  catalog companies, or online retail companies. It is
                                  processed by a system of 21 bulk mail centers and other
                                  facilities nationwide. The U.S. Postal Service spends more
                                  than $500 million annually on contracts to transport bulk
                                  mail over highway networks. Contracted routes are
                                  controlled by individual Postal Service areas.




    Highway transportation
   contractor connecting the
 trailer for departure from the
    Denver Bulk Mail Center
        August 29, 2005.




                                  This report focuses on the routes controlled by the Western
                                  Area and responds to a request from the vice president,
                                  Network Operations Management.

 Objectives, Scope,               The objectives of our audit were to evaluate the
 and Methodology                  effectiveness of scheduled bulk mail center highway
                                  transportation routes and identify opportunities for cost
                                  savings.

                                  Using Postal Service computer-generated data, we
                                  identified 2,896 trips operated under 330 Western Area
                                  contracts that had at least one bulk mail center service
                                  point. In preparation for our work, we provided area officials
                                  and Postal Service managers with the list of Western Area
                                  contracts we intended to audit. During our work, we
                                  interviewed officials at headquarters and in the Western
                                  Area; reviewed relevant Postal Service policies and
                                  procedures; visited the area’s five bulk mail centers;
                                  contacted the area’s four auxiliary service facilities;
                                  interviewed managers and employees; and observed and


                                                    1
Surface Transportation – Bulk Mail Center Highway                                 NL-AR-06-001
 Transportation Routes – Western Area


                               photographed operations. We consulted with financial
                               analysts, computer analysts, and other subject matter
                               experts; evaluated mail volume and the type of mail carried;
                               considered service standards; and analyzed all 2,896 trips.

                               We conducted work associated with this report from
                               August 2005 through February 2006, in accordance with
                               generally accepted government auditing standards, and
                               included such tests of internal controls as we considered
                               necessary under the circumstances. We discussed our
                               observations and conclusions with management officials
                               and included their comments where appropriate.

                               We examined computer data in management’s
                               Transportation Contract Support System and Transportation
                               Information Management Evaluation System. We did not
                               audit or comprehensively validate the data; however, we
                               noted several control weaknesses that constrained our
                               work. For example, the Transportation Information
                               Management Evaluation System had missing records and
                               inaccurate trailer load volumes.

 Prior Audit Coverage          Since September 2002, the U.S. Postal Service Office of
                               Inspector General has worked with the Postal Service to
                               reduce surface transportation. As a result, we have issued
                               19 audit reports that identified potential savings exceeding
                               $79.3 million over the life of eliminated or reduced
                               transportation contracts. For more detailed information
                               about these audits, see Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                                    NL-AR-06-001
 Transportation Routes – Western Area


                                        AUDIT RESULTS
 Contracted Bulk Mail          The Postal Service could save about $2.2 million over the
 Center Highway Trips          term of existing Western Area bulk mail highway contracts
                               by canceling, not renewing, or modifying 77 trips. The
                               Postal Service could eliminate or modify the trips without
                               negatively affecting service because trip mail volume was
                               low and mail could be consolidated on other trips. As
                               indicated below, 18 percent of affected trips expire within
                               1 year. The other 82 percent have 1 to 3 years remaining.

                                            PROPOSED NONRENEWALS AND CANCELLATIONS

                                                            AFFECTED      NUMBER     ESTIMATED
                                    TRIP CATEGORY             TRIPS       OF TRIPS    SAVINGS

                                 Contracts expiring
                                 within 1 year               18 percent      14        $363,670


                                 Contracts expiring in
                                 1-3 years                   82 percent      63       $1,872,142

                                 All terminated trips       100 percent      77       $2,235,812

                               Postal Service policy requires transportation managers to
                               balance service and cost. Although managers continually
                               strive to optimize transportation through aggressive cost
                               cutting efforts — such as their breakthrough productivity
                               initiative — transportation requirements are dynamic and
                               constantly change. Consequently, the Postal Service could
                               attain additional savings through further service reductions
                               by not renewing unnecessary trips that are scheduled to
                               expire within 1 year, or by canceling unnecessary trips that
                               are currently contracted to continue for 1 to 3 years. The
                               savings we identified included savings from nonrenewable
                               trips, plus savings from trip cancellations net of cancellation
                               fees totaling approximately $193,631.

 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we had ongoing communication
                               with Western Area officials throughout our audit. We
                               provided the Western Area officials with a list of our specific
                               trip proposals, and the officials reviewed each proposal in
                               conjunction with their own assessment of area-wide network
                               requirements. After the area’s review, we discussed our
                               proposals and area operational needs with area officials and
                               made appropriate adjustments.



                                                        3
Surface Transportation – Bulk Mail Center Highway                                       NL-AR-06-001
 Transportation Routes – Western Area


                               As a result of our cooperative effort, the area agreed with
                               the 75 proposals outlined in Appendices B and C, and
                               agreed to reassess the two trips listed in Appendix D, which
                               managers feel are still necessary.

                                           PROPOSED CANCELLATIONS AND MODIFICATIONS
                                         CANCELLATION             NUMBER                ESTIMATED
                                           CATEGORY               OF TRIPS   APPENDIX    SAVINGS
                                 Postal Service identified trip
                                 cancellations or
                                                                    25          B         $255,340
                                 modifications during the
                                 audit

                                 Proposals with which area
                                                                    50          C       $1,036,064
                                 officials agreed

                                 Proposals with which
                                                                     2          D         $944,408
                                 managers disagreed

                                 Total                              77                  $2,235,812


 Recommendation                We recommend the vice president, Western Area
                               Operations:

                               1. Verify the actual cancellation, modification, or
                                  substitution of the 25 trips management identified during
                                  our audit.

 Management’s                  Management agreed with our recommendation. They
 Comments                      stated they had already made three trip reductions and
                               would make the remaining trip reductions by April 2006.
                               Management’s comments, in their entirety, are included in
                               Appendix E of this report.

 Recommendation                We recommend the vice president, Western Area
                               Operations:

                               2. Verify the actual cancellation, modification, or
                                  substitution of the 50 trips with which Postal Service
                                  managers agreed and provide the dates action was
                                  taken.

 Management’s                  Management agreed with our recommendation and stated
 Comments                      they would make the proposed trip reductions by May 2006.




                                                     4
Surface Transportation – Bulk Mail Center Highway                                  NL-AR-06-001
 Transportation Routes – Western Area




 Recommendation                We recommend the vice president, Western Area
                               Operations:

                               3. Reassess the two trips which Postal Service managers
                                  still feel are necessary, and cancel or modify the trips as
                                  indicated by the reassessment or document the reasons
                                  for retaining the trips.

 Management’s                  Management agreed with our recommendation. They
 Comments                      stated that they would reassess the trips to determine if they
                               could modify them without disrupting service.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. We consider management’s
 Comments                      actions, taken or planned, sufficient to address the
                               recommendations we made in our report.




                                                    5
Surface Transportation – Bulk Mail Center Highway                                                                                                NL-AR-06-001
 Transportation Routes – Western Area




                                                    APPENDIX A. PRIOR AUDIT COVERAGE
                                                                                            Number of Trips                Trips with Trips With
                                                                               Date Final    Identified for Potential        which      Which       Trips
                                                                                Report       Elimination or  Savings      Management Management Identified by
                         Report Name                           Report Number    Issued        Modification  Identified      Agreed    Disagreed  Management

   Highway Network Scheduling - Pacific Area                   TD-AR-02-003     9/24/2002          158       $4,500,417         76          34             48
   Highway Network Scheduling - Northeast Area                 TD-AR-03-002    11/25/2002           18          776,992         10           8              0
   Highway Network Scheduling - Capital Metro Area             TD-AR-03-007     3/28/2003           34        1,144,218         20          14              0
   Highway Network Scheduling - New York Metro Area            TD-AR-03-008     3/31/2003           32          470,123         12          20              0
   Highway Network Scheduling - Southwest Area                 TD-AR-03-010     7/11/2003          249        5,989,082        148         101              0
   Highway Network Scheduling - Western Area                   TD-AR-03-013     9/23/2003           70        2,721,530         30          40              0
   Highway Network Scheduling - Southeast Area                 TD-AR-03-014     9/26/2003          101       11,352,881         23          24             54
   Highway Network Scheduling - Eastern Area                   TD-AR-03-015     9/30/2003          181       10,577,367        128          53              0
   Highway Network Scheduling - Great Lakes Area               NL-AR-04-003     3/29/2004           72        5,352,877         48          22              2
   BMC Transportation Routes - Great Lakes Area                NL-AR-04-004     9/29/2004           96        7,660,533         49           7             40
   BMC Transportation Routes - Eastern Area                    NL-AR-05-003     3/17/2005           35        4,791,570         29           6              0
   Intermodal Rail and Highway Transportation - Pacific Area   NL-AR-05-004     3/18/2005            0        1,046,240          0           0              0
   BMC Transportation Routes - Southeast Area                  NL-AR-05-005     3/18/2005           52        6,563,582         52           0              0
   BMC Transportation Routes - New York Metro                  NL-AR-05-007      6/9/2005           16        1,499,371         16           0              0
   BMC Transportation Routes - Southwest Area                  NL-AR-05-008      8/3/2005           79        7,175,912         76           0              3
   BMC Transportation Routes - Capital Metro Area              NL-AR-05-009      9/2/2005           10          803,060         10           0              0
   Intermodal Rail and Highway Transportation Between the
    Pacific and Southeast Areas                                NL-AR-05-011    9/19/2005             0        1,261,308          0           0              0
   BMC Transportation Routes - Pacific Area                    NL-AR-05-012    9/21/2005            22        3,123,562         10           2             10
   BMC Transportation Routes - Northeast Area                  NL-AR-05-013    9/26/2005            41        2,491,133         15           0             26

                             Totals                                 19                           1,266      $79,301,758        752         331            183



BMC − Bulk Mail Center




                                                                                6
Surface Transportation – Bulk Mail Center Highway                                                                                              NL-AR-06-001
 Transportation Routes – Western Area




                                                                          APPENDIX B

                                        TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                      DURING AUDIT WORK


  Effective                Highway
   Date of     Ending      Contract                                                                                  Estimated
    Last       Date of      Route        Trip                                       Origin to           Annual        Contract    Indemnity     Estimated
  Change       Contract    Number       Number        Recommendation               Destination        Budget Cost      Cost          Fees        Savings
 10/26/2005    6/30/2007     50316     803 and 804   Eliminate Wednesday       Des Moines BMC, IA          $46,213      $73,171       $7,702         $65,469
                                                     trips from 803 and        to Chicago BMC, IL,
                                                     Thursday trips from       and return
                                                     804
  7/1/2005     6/30/2009     55214         810       Eliminate AMC stop        Fargo P&DC, ND to            $1,405       $5,034        $468           $4,566
                                                                               Minneapolis/St. Paul
                                                                               BMC, MN
 10/30/2004    6/30/2007     66311         803       Eliminate Thursday        Kansas City BMC,            $43,797      $69,346       $7,300         $62,046
                                                     trips                     KS to Denver BMC,
                                                                               CO
 10/30/2004    6/30/2007     66311         804       Eliminate Thursday        Denver BMC, CO to           $43,797      $69,346       $7,300         $62,046
                                                     trips                     Kansas City BMC,
                                                                               KS
  1/22/2005    6/30/2007     66313         803       Eliminate Tuesday         Kansas City BMC,            $18,046      $28,572       $3,008         $25,565*
                                                     trips                     KS to St. Louis BMC,
                                                                               MO
  1/22/2005    6/30/2007     66313         804       Eliminate Wednesday       St. Louis BMC, MO to        $18,046      $28,572       $3,008         $25,565*
                                                     trips                     Kansas City BMC,
                                                                               KS
  7/9/2005     1/21/2009    553DK       113, 114,    Eliminate Martin Luther   Minneapolis MTESC,           $2,461       $7,793        $820           $6,973
                                        201, 202,    King, Jr. Day,            MN to St. Paul
                                        203, 204,    President’s Day,          P&DC, MN, and
                                        205, 206,    Columbus Day, and         return
                                        207, 208,    Veterans’ Day
                                        209, 210,
                                        211, 212




                                                                                     7
Surface Transportation – Bulk Mail Center Highway                                                                                           NL-AR-06-001
 Transportation Routes – Western Area



  Effective                   Highway
   Date of       Ending       Contract                                                                             Estimated
    Last         Date of       Route       Trip                                     Origin to          Annual       Contract    Indemnity    Estimated
  Change         Contract     Number      Number       Recommendation              Destination       Budget Cost     Cost          Fees       Savings
  7/9/2005       1/21/2009     553DK      115, 116    Eliminate Martin Luther   Minneapolis MTESC,          $488       $1,545        $163          $1,383*
                                                      King, Jr. Day,            MN to St. Paul
                                                      President’s Day,          P&DC, MN, and
                                                      Columbus Day, and         return
                                                      Veterans’ Day
  7/9/2005       1/21/2009     553DK      117, 118    Eliminate New Year’s,     Minneapolis MTESC,          $610       $1,932        $203          $1,728*
                                                      July 4, Veterans’ Day,    MN to St. Paul
                                                      Thanksgiving, and         P&DC, MN, and
                                                      Christmas                 return


                 TOTALS                      25                                                         $174,863    $ 285,311    $29,971*       $255,340*

AMC     −     Airport Mail Center
BMC     −     Bulk Mail Center
P&DC    −     Processing and Distribution Center
MTESC   −     Mail Transportation Equipment Service Center

* Minor rounding difference




                                                                                     8
Surface Transportation – Bulk Mail Center Highway                                                                                         NL-AR-06-001
 Transportation Routes – Western Area




                                                                          APPENDIX C

                                       TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                              POSTAL SERVICE MANAGERS AGREED

  Effective                 Highway
   Date of      Ending      Contract                                                                           Estimated
    Last       Date of       Route       Trip                                  Origin to          Annual        Contract    Indemnity    Estimated
  Change       Contract     Number      Number      Recommendation            Destination       Budget Cost      Cost          Fees       Savings
  9/10/2005    6/30/2009      50311        805      Eliminate Memorial     Des Moines BMC,             $558        $1,998         $186         $1,812
                                                    Day and July 4         IA to Kansas City
                                                                           BMC, KS
  9/10/2005    6/30/2009      50311        806      Eliminate Memorial     Kansas City BMC,            $558        $1,998         $186         $1,812
                                                    Day and July 4         KS to Des Moines
                                                                           BMC, IA
  9/10/2005    6/30/2009      50320        801      Eliminate Memorial     Des Moines BMC,            $1,614       $5,785         $538         $5,247
                                                    Day                    IA to Jacksonville
                                                                           BMC, FL
  9/10/2005    6/30/2009      50320        802      Eliminate Memorial     Jacksonville BMC,          $1,614       $5,785         $538         $5,247
                                                    Day                    FL to Des Moines
                                                                           BMC, IA
  8/6/2005     6/30/2007      50323         1       Eliminate Monday       Des Moines BMC,           $39,210      $62,082           $0        $62,082
                                                    trips                  IA to Pittsburgh
                                                                           BMC, PA
  8/6/2005     6/30/2007      50323         2       Eliminate Monday       Pittsburgh BMC,           $39,210      $62,082           $0        $62,082
                                                    trips                  PA to Des Moines
                                                                           BMC, IA
  8/6/2005     6/30/2007      50324        801      Eliminate Christmas    Des Moines BMC,            $2,053       $3,250           $0         $3,250
                                                    and New Year’s         IA to Philadelphia
                                                                           BMC, PA
  8/6/2005     6/30/2007      50324        802      Eliminate Christmas    Philadelphia BMC,          $2,053       $3,250           $0         $3,250
                                                    and New Year’s         PA to Des Moines
                                                                           BMC, IA
  1/22/2005    6/30/2006      57014         1       Eliminate Memorial     Sioux Falls P&DC,           $903        $3,610           $0         $3,610
                                                    Day and Columbus       SD to Rapid City
                                                    Day                    P&DF, SD




                                                                                    9
Surface Transportation – Bulk Mail Center Highway                                                                                          NL-AR-06-001
 Transportation Routes – Western Area


  Effective                 Highway
   Date of      Ending      Contract                                                                            Estimated
    Last       Date of       Route       Trip                                  Origin to           Annual        Contract    Indemnity    Estimated
  Change       Contract     Number      Number      Recommendation            Destination        Budget Cost      Cost          Fees       Savings
  1/22/2005    6/30/2006      57014         2       Eliminate Memorial      Rapid City P&DF,            $903        $3,610           $0         $3,610
                                                    Day and Columbus        SD to Sioux Falls
                                                    Day                     P&DC, SD
 11/27/2004    6/30/2006      57017         9       Eliminate holiday       Sioux Falls P&DC,          $3,664      $14,655           $0        $14,655
                                                    trips and day after     SD to Huron, SD
                                                    holiday trips
 11/27/2004    6/30/2006      57017        10       Eliminate holiday       Huron, SD to Sioux         $3,664      $14,655           $0        $14,655
                                                    trips and day after     Falls P&DC, SD
                                                    holiday trips
  4/16/2005    6/30/2006      57043         1       Eliminate Martin        Sioux Falls P&DC,           $166         $664            $0          $664
                                                    Luther King, Jr. Day,   SD to Madison, SD
                                                    President’s Day,
                                                    Columbus Day, and
                                                    Veterans’ Day
  4/16/2005    6/30/2006      57043         2       Eliminate Martin        Madison, SD to              $166         $664            $0          $664
                                                    Luther King, Jr. Day,   Sioux Falls P&DC,
                                                    President’s Day,        SD
                                                    Columbus Day, and
                                                    Veterans’ Day
  4/16/2005    6/30/2006      57043         3       Eliminate Martin        Sioux Falls P&DC,           $271        $1,083           $0         $1,083
                                                    Luther King, Jr. Day,   SD to Oldham, SD
                                                    President’s Day,
                                                    Columbus Day, and
                                                    Veterans’ Day
  4/16/2005    6/30/2006      57043         4       Eliminate Martin        Oldham, SD to               $320        $1,282           $0         $1,282
                                                    Luther King, Jr. Day,   Sioux Falls P&DC,
                                                    President’s Day,        SD
                                                    Columbus Day, and
                                                    Veterans’ Day
  1/22/2005    6/30/2007      58016         1       Eliminate days after    Fargo P&DC, ND to          $3,400       $5,383         $567         $4,816
                                                    holiday trips           Sioux Falls P&DC,
                                                                            SD
  1/22/2005    6/30/2007      58016         2       Eliminate days after    Sioux Falls P&DC,          $3,442       $5,449         $574        $4,876*
                                                    holiday trips           SD to Fargo P&DC,
                                                                            ND
 12/25/2004    6/30/2007      58021         1       Eliminate holiday       Fargo P&DC, ND to          $2,165       $3,428         $361         $3,067
                                                    trips                   Bismarck P&DF,
                                                                            ND



                                                                                    10
Surface Transportation – Bulk Mail Center Highway                                                                                          NL-AR-06-001
 Transportation Routes – Western Area


  Effective                 Highway
   Date of      Ending      Contract                                                                            Estimated
    Last       Date of       Route       Trip                                  Origin to           Annual        Contract    Indemnity    Estimated
  Change       Contract     Number      Number      Recommendation            Destination        Budget Cost      Cost          Fees       Savings
 12/25/2004    6/30/2007      58021         2       Eliminate holiday       Bismarck P&DF,             $2,165       $3,428         $361         $3,067
                                                    trips                   ND to Fargo P&DC,
                                                                            ND
  1/22/2005    6/30/2007      66315        801      Eliminate Sunday        Kansas City BMC,          $45,558      $72,133       $7,593        $64,540
                                                    trips                   KS to Detroit BMC,
                                                                            MI
  1/22/2005    6/30/2007      66315        802      Eliminate Sunday        Detroit BMC, MI to        $44,360      $70,237       $7,393        $62,844
                                                    trips                   Kansas City BMC,
                                                                            KS
  9/10/2005    6/30/2007      66316        807      Eliminate Martin        Kansas City BMC,           $2,440       $3,863           $0         $3,863
                                                    Luther King, Jr. Day,   KS to Dallas, BMC,
                                                    Columbus Day, and       TX
                                                    Veterans’ Day
  9/10/2005    6/30/2007      66316        808      Eliminate Martin        Dallas, BMC, TX to         $2,330       $3,689           $0         $3,689
                                                    Luther King, Jr. Day,   Kansas City BMC,
                                                    Columbus Day, and       KS
                                                    Veterans Day
  9/10/2005    6/30/2007      66316        801      Eliminate Christmas     Kansas City BMC,            $777        $1,230           $0         $1,230
                                                                            KS to Dallas, BMC,
                                                                            TX
  9/10/2005    6/30/2007      66316        802      Eliminate Christmas     Dallas, BMC, TX to          $824        $1,305           $0         $1,305
                                                                            Kansas City BMC,
                                                                            KS
  3/19/2005    6/30/2008      66391        805      Eliminate trip          Hays, KS to               $19,162      $49,501       $6,387        $43,114
                                                                            Kansas City BMC,
                                                                            KS
  3/19/2005    6/30/2008      66391        806      Eliminate trip          Kansas City BMC,          $19,162      $49,501       $6,387        $43,114
                                                                            KS to Hays, KS
  1/22/2005    6/30/2008      80097        807      Eliminate trip          Denver BMC, CO            $14,867      $38,407       $4,956        $33,451
                                                                            to Boulder Valmont
                                                                            Station, CO
  1/22/2005    6/30/2008      80097        808      Eliminate trip          Boulder Valmont           $14,867      $38,407       $4,956        $33,451
                                                                            Station, CO to
                                                                            Denver BMC, CO
  1/22/2005    6/30/2006      80215        849      Eliminate Sunday        Denver BMC, CO            $30,190     $120,760           $0       $120,760
                                                    trips                   to Provo East Bay,
                                                                            UT



                                                                                    11
Surface Transportation – Bulk Mail Center Highway                                                                                           NL-AR-06-001
 Transportation Routes – Western Area


  Effective                 Highway
   Date of      Ending      Contract                                                                             Estimated
    Last       Date of       Route       Trip                                   Origin to           Annual        Contract    Indemnity    Estimated
  Change       Contract     Number      Number      Recommendation             Destination        Budget Cost      Cost          Fees       Savings
  1/22/2005    6/30/2006      80215        850      Eliminate Sunday        Provo East Bay, UT         $32,255     $129,018           $0       $129,018
                                                    trips                   to Denver BMC,
                                                                            CO
 12/25/2004    6/30/2007      84123         3       Eliminate Saturday      Salt Lake City ASF,         $3,947       $6,250         $658         $5,592
                                                    trips                   UT to Ogden, UT
 12/25/2004    6/30/2007      84123         4       Eliminate Saturday      Ogden, UT to Salt           $3,927       $6,217         $654         $5,563
                                                    trips                   Lake City ASF, UT
  1/22/2005    6/30/2007      84132        23       Eliminate trip          Salt Lake City ASF,         $3,389       $5,366         $565         $4,801
                                                                            UT to West Jordan,
                                                                            UT
  1/22/2005    6/30/2007      84132        24       Eliminate trip          West Jordan, UT to          $1,768       $2,800         $295         $2,505
                                                                            Salt Lake City ASF,
                                                                            UT
 12/25/2004    6/30/2007      84140         7       Eliminate Saturday      Salt Lake City ASF,         $3,269       $5,175         $545         $4,630
                                                    trips                   UT to Layton, UT
 12/25/2004    6/30/2007      84140         8       Eliminate Saturday      Layton, UT to Salt          $3,247       $5,141         $541        $4,599*
                                                    trips                   Lake City ASF, UT
  1/22/2005    6/30/2007      98195        805      Eliminate Monday        Seattle BMC, WA             $4,197       $6,646         $700         $5,946
                                                    trips, Christmas, and   to Everett P&DF,
                                                    July 4                  WA
  1/22/2005    6/30/2007      98195        806      Eliminate Monday        Everett P&DF, WA            $4,197       $6,646         $700         $5,946
                                                    trips, Christmas, and   to Seattle BMC,
                                                    July 4                  WA
 12/25/2004    6/30/2006     552Y2         801      Eliminate Christmas     Minneapolis/St.             $1,309       $5,235           $0         $5,235
                                                                            Paul BMC, MN to
                                                                            Washington BMC,
                                                                            MD
 12/25/2004    6/30/2006     552Y2         802      Eliminate Christmas     Washington BMC,             $1,309       $5,235           $0         $5,235
                                                                            MD to
                                                                            Minneapolis/St.
                                                                            Paul BMC, MN
  1/22/2005    6/30/2006     570BA         305      Eliminate trip          Sioux Falls P&DC,           $8,102      $32,409           $0        $32,409
                                                                            SD to Meadows
                                                                            Postal Store, SD
  1/22/2005    6/30/2006     570BA         306      Eliminate trip          Meadows Postal              $7,697      $30,789           $0        $30,789
                                                                            Store, SD to Sioux
                                                                            Falls P&DC, SD



                                                                                    12
Surface Transportation – Bulk Mail Center Highway                                                                                          NL-AR-06-001
 Transportation Routes – Western Area


  Effective                   Highway
   Date of       Ending       Contract                                                                         Estimated
    Last        Date of        Route        Trip                              Origin to           Annual        Contract     Indemnity    Estimated
  Change        Contract      Number       Number   Recommendation           Destination        Budget Cost      Cost           Fees       Savings
 12/25/2004      6/30/2007      663U1         801   Eliminate Sunday      Kansas City BMC,           $55,024       $87,121       $9,171       $77,951*
                                                    trips and Christmas   KS to Greensboro
                                                                          BMC, NC
 12/25/2004      6/30/2007      663U1         802   Eliminate Sunday      Greensboro BMC,            $55,024       $87,121       $9,171       $77,951*
                                                    trips and Christmas   NC to Kansas City
                                                                          BMC, KS
 12/25/2004      6/30/2007     841AA           1    Eliminate trip        Salt Lake City ASF,         $8,452       $13,383       $1,409        $11,974
                                                                          UT to Millcreek
                                                                          Branch, UT
 12/25/2004      6/30/2007     841AA           2    Eliminate trip        Millcreek Branch,           $8,452       $13,383       $1,409        $11,974
                                                                          UT to Salt Lake
                                                                          City ASF, UT
  9/3/2005       9/30/2008     981U0          821   Eliminate Christmas   Seattle BMC, WA              $309          $875            $0          $875
                                                    Eve                   to Lewiston ID
  9/3/2005       9/30/2008     981U0         822    Eliminate Christmas   Lewiston ID to               $309          $875            $0          $875
                                                    Eve                   Seattle BMC, WA


                 TOTALS                       50                                                  $508,816*    $1,102,862*     $66,798*    $1,036,064*

BMC     −   Bulk Mail Center
P&DC    −   Processing and Distribution Center
ASF     −   Auxiliary Service Facility
P&DF    −   Processing and Distribution Facility

* Minor rounding difference




                                                                                  13
Surface Transportation – Bulk Mail Center Highway                                                                                         NL-AR-06-001
 Transportation Routes – Western Area



                                                                     APPENDIX D

                                         TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                              POSTAL SERVICE MANAGERS DISAGREED



  Effective                   Highway
   Date of      Ending        Contract
    Last       Date of         Route       Trip                            Origin to           Annual         Estimated     Indemnity      Estimated
  Change       Contract       Number      Number    Recommendation        Destination        Budget Cost    Contract Cost      Fees         Savings
  7/1/2005     6/30/2009       55214        809     Eliminate Trip    Minneapolis/St. Paul       $135,678        $486,181       $45,226         $440,955
                                                                      BMC, MN to Fargo
                                                                      P&DC, ND
  7/1/2005     6/30/2009       55214        808     Eliminate Trip    Fargo P&DC, ND to          $154,908       $555,089        $51,636         $503,453
                                                                      Minneapolis/St. Paul
                                                                      BMC, MN

               TOTALS                        2                                                 $ 290,587*    $ 1,041,270      $ 96,862         $ 944,408



BMC − Bulk Mail Center
P&DC − Processing and Distribution Center

* Minor rounding difference




                                                                              14
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                APPENDIX E. MANAGEMENT’S COMMENTS




                                                    15
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                                                    16
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                                                    17
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                                                    18
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                                                    19
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                                                    20
Surface Transportation – Bulk Mail Center Highway        NL-AR-06-001
 Transportation Routes – Western Area




                                                    21
